Executive Report



Return to the USDOJ/OIG Home Page



Community Oriented Policing Services GrantStorey County Sheriff's Department, Nevada
GR-90-01-005January 2001Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Storey County, Nevada Sheriff's Department (SCSD).  The purpose of the grants is to enhance community policing.  The SCSD was awarded a total of $443,691 to hire six deputy sheriffs.

We reviewed the SCSD's compliance with seven essential grant conditions.  We found the following grant conditions acceptable:  grantee's budgeting practices, hiring of deputy sheriffs, source of matching funds, retention efforts, and community policing activities.  However, we found weaknesses in the areas identified below.  As a result, we question $25,760 and recommend an additional $147,897 be put to better use.1

The SCSD received reimbursement for more than it was allowed under the UHP I grant; therefore, we are questioning $25,760.

	The SCSD did not inform the COPS Office of its decision to hire only one of the three sworn deputies funded under the UHP II grant program.  Therefore, we recommend that COPS deobligate $147,897 and put the funds to better use.

	Several of the SCSD status reports were either not accurate, not filed timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnote

  The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.